EXAMINATION OF THE DEPARTMENT OF 

   JUSTICE'S FISCAL YEAR 2013 

  COMPLIANCE WITH THE IMPROPER 

PAYMENTS INFORMATION ACT OF 2002,        

           As AMENDED

        u.s.  Department of Justice
       Office of the Inspector General

               Report 14-22 

                April 2014 

        EXAMINATION OF THE DEPARTMENT OF JUSTICE’S 

           FISCAL YEAR 2013 COMPLIANCE WITH THE 

        IMPROPER PAYMENTS INFORMATION ACT OF 2002, 

                        AS AMENDED 


                           EXECUTIVE SUMMARY 


        The Office of the Inspector General (OIG) examined the U.S. Department of
Justice’s (Department) compliance with the requirements of Office of Management
and Budget (OMB) Circular A-123, Management’s Responsibility for Internal
Control, Appendix C, Requirements for Effective Measurement and Remediation of
Improper Payments; and OMB Circular A-136, Financial Reporting Requirements,
for the fiscal year ended September 30, 2013. This examination is required by the
Improper Payments Information Act of 2002, as amended by the Improper
Payments Elimination and Recovery Act of 2010. The Department annually
reviewed all programs and activities and did not identify any to be susceptible to
significant erroneous payments for the cumulative period of fiscal years 2004
through 2013. During fiscal year 2013, the Department identified for recovery
approximately $22 million in improper payments and recovered approximately
$18.1 million of improper payments. For the cumulative period, the Department
achieved an overall payment recovery rate of 89 percent; with approximately $62.5
million in improper payments identified and approximately $55.6 million of
improper payments recovered.

       The OIG conducted the examination and prepared its report in accordance
with the attestation standards contained in Government Auditing Standards, issued
by the Comptroller General of the United States. In determining the level of
assurance, we considered the requirements outlined in OMB Circular A-123,
Appendix C, and OMB Circular A-136; the expectations of the users of the report;
and any potential risks associated with performing the engagement. We performed
a compliance examination due to the higher level of assurance it provides, the
result of which is the expression of an opinion.

      The OIG is not independent with respect to amounts pertaining to OIG
operations that are presented in the improper payments reporting. However, the
amounts included for the OIG are not material to the Department’s improper
payments reporting, and the OIG is organizationally independent with respect to all
other aspects of the Department’s activities.

      The OIG conducted the examination to determine compliance with the
requirements, as set forth in OMB Circular A-123, Appendix C; and OMB Circular
A-136. The examination was comprised of the OIG gaining an understanding of the
Department and component level controls through inquiry procedures, a review of
documentation supporting the information published in the Department’s fiscal year
2013 Agency Financial Report, as well as re-performance of calculations computed
by the Department.

      We found that the Department complied, in all material respects, with the
aforementioned requirements for the fiscal year ended September 30, 2013.
This page intentionally left blank.
          EXAMINATION OF THE DEPARTMENT OF JUSTICE’S 

             FISCAL YEAR 2013 COMPLIANCE WITH THE 

          IMPROPER PAYMENTS INFORMATION ACT OF 2002, 

                          AS AMENDED 


                                   TABLE OF CONTENTS


                                                                                                   PAGE
BACKGROUND.............................................................................................. 1

INDEPENDENT REPORT ON COMPLIANCE WITH THE IMPROPER PAYMENTS
     INFORMATION ACT OF 2002, AS AMENDED ............................................. 5

APPENDIX I: IMPROPER PAYMENTS REPORTING IN THE FISCAL YEAR 2013
     DEPARTMENT OF JUSTICE AGENCY FINANCIAL REPORT ............................ 7

APPENDIX II: STATUS OF PRIOR YEAR’S COMMENT AND RECOMMENDATIONS ... 19
This page intentionally left blank.
Background

       On July 22, 2010, the President of the United States signed into law the
Improper Payments Elimination and Recovery Act of 2010 (IPERA); and on
January 10, 2013, the President signed into law the Improper Payments Elimination
and Recovery Improvement Act of 2012 (IPERIA), both of which amended the
Improper Payments Information Act of 2002 (IPIA).1 IPERA expanded the scope of
the IPIA beyond commercial payments to include more payment types, such as
grants and cooperative agreements, and benefit and assistance payments. IPERA
also required agencies, including the Department of Justice (Department), to report
information on improper payments annually to the President and Congress through
its Agency Financial Report (AFR). IPERIA further expanded the types of payments
to be considered, to include employee disbursements and government charge card
payments. It also required agencies to implement prepayment and preaward
procedures that include verifying all vendor payments through the Do Not Pay
system by June 1, 2013.

       A more recent law, the Disaster Relief Appropriations Act (Disaster Relief
Act), signed by the President on January 29, 2013, provided a total of $50.5 billion
in aid for Hurricane Sandy disaster victims and their communities. The Disaster
Relief Act deemed these funds to be susceptible to improper payments and requires
agencies supporting Hurricane Sandy recovery, and other disaster-related activities,
to implement additional internal controls to prevent waste, fraud, and abuse of
these funds. Since these funds have been deemed susceptible to improper
payments, each agency is also required to produce and report an improper
payment estimate for the fiscal year 2014 reporting period, to the extent possible.

        Agencies are required to assess every federal program and dollar disbursed
for improper payment risk, measure the accuracy of payments annually, and
initiate program improvements to ensure payment errors are reduced. Specifically,
they are required to review all programs and activities and identify those that are
susceptible to significant erroneous payments. For those programs or activities that
are deemed susceptible to significant erroneous payments, either by the agency or
by law, the agency must obtain a statistically valid estimate of the annual amount
of improper payments and thereafter implement a plan to reduce erroneous
payments. The agency must annually report and note in the AFR the progress of
reducing estimates of improper payments in its programs and activities. In fiscal
year 2013, federal agencies with high risk programs or activities reported $106
billion in estimated improper payments.

       In addition to reporting the estimated annual amount of improper payments
for programs or activities susceptible to significant erroneous payments, IPERA also
requires agencies to conduct payment recapture audits for each program and
activity that expends $1 million or more annually, if conducting such audits is cost-

       1
         Unless otherwise noted, the usage of the term “IPIA” will imply “IPIA, as amended by IPERA
and IPERIA.”




                                               -1-
effective. Agencies must have a cost-effective program of internal controls to
prevent, detect, and recover overpayments resulting from payment errors. All
agencies are required to establish annual targets for its payment recapture audit
programs that will drive its annual performance.

      Each fiscal year, the Office of the Inspector General (OIG) of each agency is
responsible for determining whether the agency is in compliance with the improper
payment reporting requirements, as set forth in Office of Management and Budget
(OMB) Circular A-123, Management’s Responsibility for Internal Control, Appendix C,
Requirements for Effective Measurement and Remediation of Improper Payments;
and OMB Circular A-136, Financial Reporting Requirements. The OIG is required to
complete its assessment and submit a report, within 120 days after issuance of the
AFR, on its determination to the head of the agency, the Committee on Homeland
Security and Governmental Affairs of the U.S. Senate, the Committee on Oversight
and Government Reform of the U.S. House of Representatives, the Comptroller
General, and the Controller of OMB.

       The OIG’s responsibility, as described in OMB Circular A-123, Appendix C,
and as related to a compliance examination, is to determine an agency’s
compliance with IPIA. Compliance with IPIA means that the Department has:
(1) published an AFR for the most recent fiscal year and posted that report and any
accompanying materials required by OMB on the Department’s website;
(2) conducted a program-specific risk assessment for each program or activity that
conforms with IPIA (if required); (3) published improper payment estimates for all
programs and activities identified as susceptible to significant improper payments
under its risk assessment (if required); (4) published programmatic corrective
action plans in the AFR (if required); (5) published, and has met, annual reduction
targets for each program assessed to be at risk and measured for improper
payments (if required); (6) reported a gross improper payment rate of less than
10 percent for each program and activity for which an improper payment estimate
was obtained and published in the AFR (if required); and (7) reported information
on its efforts to recapture improper payments. If the OIG identifies any non-
compliance with the items noted above, these issues are to be documented in the
Independent Report on Compliance with the Improper Payments Information Act of
2002, As Amended and the Department would be deemed to be non-compliant with
IPIA.

       Additionally, OMB Circular A-123, Appendix C, states that the OIG “should
also evaluate the accuracy and completeness of agency reporting, and evaluate
agency performance in reducing and recapturing improper payments.” The Circular
goes on to say, “As part of its report, the agency Inspector General should include
its evaluation of agency efforts to prevent and reduce improper payments, and any
recommendations for actions to further improve the agency's or program's
performance in reducing improper payments.” We considered these additional
procedures while performing the examination.




                                        -2-
       The Department reviewed the requirements of IPIA, as well as OMB
Circular A-123, Appendix C, and OMB Circular A-136, to collect and publish
information on the Department’s improper payments as of September 30, 2013 in
its AFR (item 1 above). The Department conducted a risk assessment (item 2
above) of its five self-identified programs to determine if any were deemed to be
susceptible to significant improper payments, defined as gross annual improper
payments in the program exceeding the OMB thresholds of both 2.5 percent of
program outlays and $10 million, or $100 million. Based on the results of its risk
assessment, the Department determined that it did not have any programs that
were susceptible to significant improper payments as of September 30, 2013. As a
result, the Department was not required to include the following information in its
AFR: improper payment estimates, programmatic corrective actions plans, annual
reduction targets for programs at risk, and a gross improper payment rate for each
program and activity at risk (items 3 through 6 above). Nevertheless, as required,
the Department reported on its efforts to recapture improper payments in the AFR
(item 7 above).




                                       -3-
This page intentionally left blank.




               -4-
                                              U.S. Department of Justice

                                              Office of the Inspector General


                                              Washington, D.C. 20530




       Office of the Inspector General’s Independent Report
            on Compliance with the Improper Payments
               Information Act of 2002, As Amended



United States Attorney General
U.S. Department of Justice

       We have examined the Department of Justice’s (Department) compliance
with the requirements of Office of Management and Budget (OMB) Circular A-123,
Management’s Responsibility for Internal Control, Appendix C, Requirements for
Effective Measurement and Remediation of Improper Payments; and OMB Circular
A-136, Financial Reporting Requirements as they relate to the Improper Payments
Information Act of 2002, as amended, for the fiscal year ended September 30,
2013. Management is responsible for the Department's compliance with these
requirements. Our responsibility is to express an opinion on the Department's
compliance based on our examination.

      Our examination was conducted in accordance with the attestation standards
contained in Government Auditing Standards, issued by the Comptroller General of
the United States, and, accordingly, included examining, on a test basis, evidence
about the Department's compliance with the requirements described in the
preceding paragraph and performing such other procedures as we considered
necessary in the circumstances. We believe that our examination provides a
reasonable basis for our opinion. Our examination does not provide a legal
determination on the Department's compliance with specified requirements.

      In our opinion, the Department complied, in all material respects, with the
aforementioned requirements for the fiscal year ended September 30, 2013.




Mark L. Hayes, CPA, CFE
Director, Financial Statement Audit Office
Office of the Inspector General
U.S. Department of Justice

March 27, 2014


                                        -5-
This page intentionally left blank.




               -6-
                                                                                                    APPENDIX I

                   IMPROPER PAYMENTS REPORTING IN THE

                  FISCAL YEAR 2013 DEPARTMENT OF JUSTICE 

                         AGENCY FINANCIAL REPORT


          Improper Payments Information Act, as Amended, Reporting Details 

The Improper Payments Information Act of 2002 (IPIA), as amended by the Improper Payments
Elimination and Recovery Act of 2010 (IPERA), requires agencies to annually report certain information
on improper payments to the President and Congress through their annual Agency Financial Report or
Performance and Accountability Report.1 The Department provides the following improper payments
reporting details as required by the IPIA, as amended; implementing guidance in OMB Circular A-123,
Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments; and IPIA
reporting requirements in OMB Circular A-136, Financial Reporting Requirements.

Item I. Risk Assessment. Briefly describe the risk assessment performed (including the risk
factors examined, if appropriate) subsequent to completing a full program inventory. List the risk-
susceptible programs (i.e., programs that have a significant risk of improper payments based on
statutory thresholds) identified by the agency risk assessment. Highlight any changes to the risk
assessment methodology or results that occurred since the FY 2012 IPIA report.

In accordance with the IPIA, as amended, and OMB implementing guidance, the Department assessed its
programs and activities for susceptibility to significant improper payments. The Department’s top-down
approach for assessing the risk of significant improper payments allows for the analysis and reporting of
results by the Department’s five mission-aligned programs – Law Enforcement; Litigation; Prisons and
Detention; State, Local, Tribal, and Other Assistance; and Administrative, Technology, and Other. The
approach promotes consistency across the Department in implementing the expanded requirements of the
IPIA, as amended.

In FY 2013, the Department disseminated an updated risk assessment survey instrument for Departmental
components to use in conducting the required risk assessment. The instrument examined disbursement
activities against nine risk factors, such as payment volume and process complexity, and covered
commercial payments, custodial payments, benefit and assistance payments, and grants and cooperative
agreements.2

The Department’s risk assessment methodology for FY 2013 did not change from FY 2012. For
FY 2013, the methodology again included assessing risk against various risk factors and for various

1
  A more recent law, the Improper Payments Elimination and Recovery Improvement Act of 2012 (IPERIA), also amended the
IPIA. The new reporting requirements from the IPERIA are effective beginning in FY 2014; therefore, the Department will
begin addressing them in its IPIA reporting for FY 2014.
2
 The nine risk factors examined during the risk assessment were Policies and Procedures; Results of OMB Circular A-123
Assessment, OIG Audits/Reviews, and Other External Audits/Reviews; Corrective Actions; Results of Monitoring Activities;
Results of Recapture Audit Activities; Process Complexities; Volume and Dollar Amount of Payments; Control Risk; and
Capability of Personnel.



                                                          -7-
payment types. In addition, the results of the FY 2013 risk assessment did not change from FY 2012. For
FY 2013, the Department-wide risk assessment again determined there were no programs susceptible to
significant improper payments, i.e., improper payments exceeding the thresholds of (1) both 2.5 percent
of program outlays and $10 million or (2) $100 million.

In FY 2013, the Department received approximately $20 million of funding under the Disaster Relief
Appropriations Act of 2013 (Disaster Relief Act). The Disaster Relief Act provides that all programs and
activities receiving funds under the Act shall be deemed to be susceptible to significant improper
payments for purposes of IPIA reporting, regardless of any previous improper payment risk assessment
results. In accordance with the OMB implementing guidance, the Department will begin reporting on the
risk-susceptible funding in the Department’s IPIA reporting for FY 2014.

Item II. Statistical Sampling. Any agency that has programs or activities that are susceptible to
significant improper payments shall briefly describe the statistical sampling process conducted to
estimate the improper payment rate for each program identified with a significant risk of improper
payments. Highlight any changes to the statistical sampling process that have occurred since the
FY 2012 IPIA report.

Not applicable. Based on the results of the FY 2013 Department-wide risk assessment, there were no
programs susceptible to significant improper payments. This remains unchanged from FY 2012. With
regard to the funding provided to the Department in FY 2013 by the Disaster Relief Act, which the Act
deemed to be susceptible to significant improper payments, the Department will begin reporting on the
funding in the Department’s IPIA reporting for FY 2014 in accordance with the OMB implementing
guidance.

Item III. Corrective Actions. Any agency that has programs or activities that are susceptible to
significant improper payments shall describe the corrective action plans for:

    A. 	 Reducing the estimated improper payment rate and amount for each type of root cause
         identified. Agencies shall report root cause information (including error rate and error
         amount) based on the following three categories: Documentation and Administrative
         errors, Authentication and Medical Necessity errors, and Verification errors. This
         discussion must include the corrective actions, planned or taken, most likely to
         significantly reduce future improper payments due to each type of error an agency
         identifies, the planned or actual completion date of these actions, and the results of the
         actions taken to address these root causes. If efforts are ongoing, it is appropriate to
         include that information in this section and highlight current efforts, including key
         milestones. Agencies may also report root cause information based on additional
         categories, or sub-categories, of the three categories listed above, if available.

        Not applicable. Based on the results of the FY 2013 Department-wide risk assessment, there
        were no programs susceptible to significant improper payments. With regard to the funding
        provided to the Department in FY 2013 by the Disaster Relief Act, which the Act deemed to be
        susceptible to significant improper payments, the Department will begin reporting on the funding
        in the Department’s IPIA reporting for FY 2014 in accordance with the OMB implementing
        guidance.

    B. 	 Grant-making agencies with risk-susceptible grant programs shall briefly discuss what the
         agency has accomplished in the area of funds stewardship past the primary recipient.
         Discussion shall include the status of projects and results of any reviews.




                                                 -8-
       Not applicable. Based on the results of the FY 2013 Department-wide risk assessment, there
       were no programs susceptible to significant improper payments, to include grant programs. With
       regard to the funding provided to the Department in FY 2013 by the Disaster Relief Act, none
       was for grant programs.

Item IV. Improper Payments Reporting.

   A. 	 Any agency that has programs or activities that are susceptible to significant improper
        payments must provide the following information in a table:
           - all risk-susceptible programs must be listed whether or not an error measurement
              is being reported;
           - where no measurement is provided, the agency should indicate the date by which
              a measurement is expected;
           - if the Current Year (CY) is the baseline measurement year, and there is no Previous
              Year (PY) information to report, indicate by either “Note” or “N/A” in the PY
              column;
           - if any of the dollar amounts included in the estimate correspond to newly
              established measurement components in addition to previously established
              measurement components, separate the two amounts to the extent possible;
           -	 agencies are expected to report on CY activity or, if not feasible, PY activity is
              acceptable if approved by OMB. Agencies should include future year outlay and
              improper payment estimates for CY+1, +2, and +3 (future year outlay estimates
              should match the outlay estimates for those years as reported in the most recent
              President’s Budget).

       Not applicable. Based on the results of the FY 2013 Department-wide risk assessment, there
       were no programs susceptible to significant improper payments. With regard to the funding
       provided to the Department in FY 2013 by the Disaster Relief Act, which the Act deemed to be
       susceptible to significant improper payments, the Department will begin reporting on the funding
       in the Department’s IPIA reporting for FY 2014 in accordance with the OMB implementing
       guidance.

   B. 	 Agencies should include the gross estimate of the annual amount of improper payments
        (i.e., overpayments plus underpayments) and should list the total overpayments and
        underpayments that make up the current year amount. In addition, agencies are allowed
        to calculate and report a second estimate that is a net total of both overpayments and
        underpayments (i.e., overpayments minus underpayments). The net estimate is an
        additional option only and cannot be used as a substitute for the gross estimate.

       Not applicable. Based on the results of the FY 2013 Department-wide risk assessment, there
       were no programs susceptible to significant improper payments. With regard to the funding
       provided to the Department in FY 2013 by the Disaster Relief Act, which the Act deemed to be
       susceptible to significant improper payments, the Department will begin reporting on the funding
       in the Department’s IPIA reporting for FY 2014 in accordance with the OMB implementing
       guidance.

Item V. Recapture of Improper Payments Reporting.

A. 	 An agency shall discuss payment recapture audit (or recovery audit) efforts, if applicable. The
     discussion should describe the agency’s payment recapture audit program, the actions and
     methods used by the agency to recoup overpayments, a justification of any overpayments
     that have been determined not to be collectable, and any conditions giving rise to improper
     payments and how those conditions are being resolved (e.g., the business process changes


                                                -9-
and internal controls instituted and/or strengthened to prevent further occurrences). If the
agency has excluded any programs or activities from review under its payment recapture
audit program (including any programs or activities where the agency has determined a
payment recapture audit program is not cost-effective), the agency should list those programs
and activities excluded from the review, as well as the justification for doing so. Include in the
discussion the dollar amount of cumulative recoveries collected beginning with FY 2004.

The Department’s payment recapture audit program is part of its overall program of internal control
over disbursements. The program includes establishing and assessing internal controls to prevent
improper payments, reviewing disbursements to identify improper payments, assessing root causes of
improper payments, developing corrective action plans, and tracking the recovery of improper
payments and disposition of recovered funds. The Department’s top-down approach for tracking and
reporting the results of recapture audit activities promotes consistency across the Department in
implementing the expanded requirements of the IPIA, as amended. In FY 2013, the Department
provided components an updated template to assist them in assessing root causes of improper
payments and tracking the recovery of such payments and disposition of recovered funds.

The root causes for overpayments other than for grants largely fell within the OMB-defined error
category of Documentation and Administrative, as most errors were user errors, to include data entry
errors. Departmental components have implemented actions to address specific areas where
improvements could be made. For example, to prevent improper payments, the Drug Enforcement
Administration (DEA) conducts data analytics on payment data entered into the Unified Financial
Management System (UFMS) prior to processing disbursements to identify payments that, if
processed, would be improper, e.g., payments to ineligible recipients, payments for ineligible
services, and duplicate payments. To reduce data entry errors, the Federal Bureau of Investigation
(FBI) increased its use of electronic billing and consolidation of invoices.

The root causes for grant overpayments also largely fell within the Documentation and
Administrative error category, as most involved payments for which grantees did not provide
sufficient documentation to support the payments. To reduce the risk of these types of overpayments,
the Department’s components that issue grants expanded training and communications informing
grantees of their responsibilities related to receiving Federal awards. For example, the Office of
Justice Programs (OJP) requires all grantees responsible for improper payments to submit written
policies and procedures describing the internal controls put in place to prevent similar occurrences in
the future.

Departmental components also have taken actions to facilitate the recovery of improper payments.
For example, the FBI produces an accounts receivable report to track the age and collection efforts for
all uncollected improper payments. The Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF) issues demand letters to debtors notifying them of the status of the debt, the date payment is
due, where to send payment, and the collection actions the ATF can pursue to recover the debt.

In FY 2013, approximately $3.76 million of overpayments were determined not to be collectable.
The vast majority of this amount, $3.69 million or 98 percent, was due to lengthy resolution efforts
concluding that four grantees were unable to repay the full amount of overpayments due to fiscal
distress. One grantee had gone out of business, and the other three grantees have been restricted from
receiving new grant awards for the period of time set forth in policy pertaining to such matters.

The Department excluded employee disbursements and intra-governmental payments from the scope
of its payment recapture audit program in accordance with the IPIA, as amended, and OMB



                                              - 10 -
    implementing guidance applicable for FY 2013. TIle Depal1ment also excluded payments to
    confidential illfomlants because of its responsibility to protect sensitive law enforcement infonnation.

   In accordance with the IPIA, as amended. and OMB implementing guidance, the Department
   measured payment recaptme perfonnallce. Based on perfonnance through the period ended
   September 30, 20 13, the Department achieved a payment recovery rate of 89 percent for the
   cmnulative period ofFYs 2004 tluough 2013. and an allllnal recovery rate of82 percent for FY 20 13.
   Table IB provided later in this section provides additional detail on the approximate $62.5 million in
   inlproper payments identified in FYs 2004 through 2013 and the approximate $55.6 million of
   recovered funds.

B. 	 Complete the tables below (if any of this information is not available, indicate by either " Note"
     or "N/A" in the relevant column or cell):

   Note: To allow infonllation to be easily viewable. the Department refonuatted the table in
   OMB Circular A-136 into tluee separate tables. Table lA provides infonllation on the total amount
   of disbursements subject to review in FY 2013. as well as the total amount reviewed under the
   Department 's payment recapnrre audit program. As shown in the table. the Department reviewed
   100 percent of its FY 2013 disbursements, except for the payments excluded from review as
   discussed in Item V.A

                                                Table 1A 

                                 Payment Recapture Audit Reporting Scope 

                                                (Dollars in Thousands) 




                                         Type of Payment               to Review for     Reviewed and
             DOJ Mission·         (indudes only the     made per          FY 2013                  in    Percent

         Adminisirabve,
         Technology, and         Custodial                                                                100%
                                                                             $416,166         $416,166



         State, Local, Tribal,
         and other Assistance

                                                                                            $3,321,044

                                                                           $4 ,593,581      $4,593,581




                                                       - 11 ­
Table IB provides the cmnulative results of payment recapnlIe audit activities for tIle ten-year period of FYs 2004 tllIOUgh 201 3. As shown in tile
table. as of the end ofFY 2013. the Department had recovered 89 percent of the improper payments identifi ed for recovery. The Department
reported a cmnulative recovery rate of 93 percent in FY 20 12 and 86 percent in FY 20 11. As shown in the table, the cmnulative recovery rate for
grants was 66 percent, while tile cmnulative recovery rate for all other types of payments ranged from 92 to 100 percent. The lower recovery rate
for grants is attributed in part to factors tIlat extend the time frame for receiving recovered grant funds. For example, some grantees have been
placed on multi-year repayment programs based on ability to pay and other factors.

                                                                          Table 18 

                                                         Cumulative Payment Recapture Audit Reporting 

                                                                            (Dollars in Thousands) 


                                                                                                             FYs 2004 throuQh 2013
                                                                                                                            Recovery                                 Percent
                                                                                                                              Rate                               Outstanding
                                                                                                                           (Percent of                             {Percent of
                                                                                                                           Cumulative                              Cumulative
                                                                                                                            Improper                                Improper
                                                                                                                            Payments                                Payments
                                                                                        Cumulative                       Recovered out                          Outstanding out
                                                                     Cumulative          Improper                        of Cumulative                           of Cumulative
                                                                      Improper           Payments         Cumulative        Improper          Cumulative            Improper
                                    Type of Payment                   Payments          Determined         Improper         Payments           Improper             Payments
DOJ Mission·Aligned         (includes only the types made per       Identified for       Not to be        Payments        Identified for       Payments           Identified fOf
         Program                         p,,>g,,~)                    Recovery]         Collectable       Recovered        Recovery)          Outstanding           Recovery)
Administrative,           Commercial                                        $3,154                 $0           $2,934               93%              $220                    7%
Technology, and Other     Custodial                                              $0                $0                $0                NIA                $0                 NIA
Litigation                Commercial                                        $4,522                $10            $4,461               99%                $51                 1%
Law Enforcement           Commercial                                       $27,495                $22           $27,077               98%               $396                 1%
State, Local, Tribal,     Benefit and Assistance                               $10                 $0               $10              100%                 $0                 0%
and Other Assistance      Commercial                                          $363                 $0              $359               99%                 $4                 1%
                          Grants and Cooperative AQreements                $15.540             $3,686           $10,265               66%             $1,589                10%
Prisons and Detention     Commercial                                       $11 ,386               $61           $10,483               92%               $842                 7%
Total                                                                      $62,470             $3,779           $55,589               89%             $3, 102                5%



j Improper payments identified for recovery do nOI im:lnde all qnestioned costs. When questioned costs are identified in an DIG andit report or Ihrough some olher means.
Departmental managemem initiates a process to validate whether the COSTS in question were improper payments: e.g .. the Depa11Inent will request additional suppon from grantees
for transactioru. thaI, at the tinle of audit. were not supported by adequate doclUlienlation. The validation process can take month.s, and in some cases years. to complete.
Therefore, for paymelll recapture audit reporting pUlposes. improper payments identified for recoveIY include only the questioned costs for which Departmental management has
completed the va lidation p rocess and delenuined that the incurred costs should not have been charged to the Government.


                                                                                      - 12 ­
 Table Ie provides the results of payment recapnrre audit activities separately by CWTent year (FY 2013) and previous years (FYs 2004 through
 20 12 combined). As shown in the cutTent year section of the Table. the improper payments recovered in the LitigaT Program exceeded the
                                                                                                                   ion
 inlproper payments identified for recovelY due to the recovery during FY 20 13 of improper payments identified in previous years. TIle lower
 recovery rate in the State, LocaL Tribal. and Other Assistance Program for commercial payments is attributed to the identification of two
 improper payments totaling approxinlately $3,800 on September 25, 2013, which did not allow enough time for the collection process to be
 completed by year-end: the improper payments were recovered the next month.

                                                                       Table 1C 

                                           Payment Recapture Audit Reporting by Current Year and Previous Years 

                                                                             (DoUars in Thousands) 


                                                                                     Cooenl Year                                                           Pll!vious Years
                                                                                      IFY 2(13)                                                        (FYs 2004 through 2012)

                                                                      Recovery                                                        Percent
                                                                        Rale                          Percent of                   OUtstanding
                                                                     (Percent of                      lmll'"opet"                   (Percenl of
                                                                    Currenl Year                      Payments                     Curren! Year
                                                                      Improper                       Determined                      Improper
                                                                      Payments                        Not 1 be
                                                                                                             0                       Payments
                       Type of                                       R~"""                           Collectable                    Outstanding
                       Payment                                      out of Curren!    Improper          out or                     oul of Curren!

       DOJ
                    (includes only
                      ""Iv"",
                                       Imll'"opet"
                                       Payments        Improper
                                                                    Year Improper
                                                                      Payments
                                                                                      Payments
                                                                                     Determined
                                                                                                      lmll'"opet"
                                                                                                      Pa.yments       Improper
                                                                                                                                   Year Improper
                                                                                                                                     Payments         '''''''­
                                                                                                                                                      Payments         Improper
 Mission·Aligned                     Identified for    Payments
                                                                     lden~~f          Not to be     Identified for    Payments
                                                                                                                                    ldentifi~rv~    Identified for     Payments
    Proaram
Administrative,
                      """""'"
                      DI"OQra~l
                    Commercia!
                                       Recoverv
                                             $1,893
                                                       Recovered
                                                           $1,698
                                                                      R=
                                                                             90%
                                                                                     Collectable
                                                                                               $0
                                                                                                      Recoverv
                                                                                                              0%
                                                                                                                     DutstandinQ
                                                                                                                            $195
                                                                                                                                     R=~
                                                                                                                                            10%
                                                                                                                                                      Recovery
                                                                                                                                                          $1,261
                                                                                                                                                                       Recovered
                                                                                                                                                                           $1.236
Technology, and     Custodial                     $0           $0            NfA               $0             NfA            $0              NfA                  $0             $0
Other
Liti~ation          Commercia!             $1,125          $1,157          103%               $10             1%           $42             14%            $3,397          $3,304
L,w                 Commercial             $9,463          $9,260            98%               $0             0%           $203              2%          $18,032         $17,817
Enforcement
State, Local,       Benefit and                  $0           $0             NfA               $0             NfA            $0              NfA                 $10         $10
Tribal, and Other   Assistance
Assistance          Commercial                   $6           $2             33%               $0             0%              $4            67%             $357            $357
                    Grants and             $6,581          $3,189            48%          $3,686             56%          ($294)            (4%)          $8,959           $7,076
                    Cooperative
                    A~reements
Prisons and         Commercia!             $2,9 13         $2,817            97%              $61             2%            $35              1%           $8,473           $7,666
Detention
Total                                     $21,981         $18,123            82%          $3,757             17%           $101              1%          $40,489          $37,466




                                                                                     - 13 ­
 If an agency has a payment recapture audit program in place, then the agency is required to establish annual targets to drive their
 annual performance. The targets shall be based on the rate of recovery. Agencies are expected to report current year amounts and
 rates, as well as recovery rate targets for three years.

 Table 2 provides cumulative (FYs 2004 through 20l3) payment recapnrre audit activities infonnation, current year (FY 20 l3) infOimation, and
 recovery rate targets for three years. As mentioned, the lower recovelY rate for grants is attributed in part to fac tors that extend the time frame
 for receiving recovered grant funds. In FY 2014, the Depal1ment will continue focusing on improving the recovery rate for grants and
 sustaining the high recovery rates for all other types of payments.

                                                                                Table 2 

                                                              Improper Payments Recovery Rates and Targets 

                                                                                   (Dollars in Thousands) 





                                                                         Payments         Improper                         Payments       Improper
DOJ Mission-Aligned                   Type of Payment                  Identified for     Payments        Recovery       Identified for   Payments   Recovery   FY   FY   FY
                                      · I
Technology, and

                                      · I
                                        I
           I, i
and Other Assistance                  · I



                                        I




4 Re:cove:ry" rate: targe:ts were: adj uste:d in FY 2012 to 85 perce:nt for all programs. con siste:nt with OMB guidance:.




                                                                                            - 14 ­
C. In addition, agencies shall report the following information on their payment recapture audit programs, if applicable:

         L    An aging schedule of the amount of overpayments identified through the payment recapture audit program that are
              outstanding (Le., overpayments that have been identified but not rec overed). Typically, the aging of an overpayment begins
              at the time the overpayment is detected. Indicate with a note whenever that is not the case.

              Table 3 provides the aging schedule for the Department's overpayments that were outstanding (not recovered) as of the end of
              FY 20 l3 . Of the approximate $1.3 million in ovetpaym ents th at were, outstanding for more than a year. approximately $1. 2 million
              (or 92 percent) have been referred to Treasury for collection.

                                                                        Table 3 

                                                     Aging of Cumulative Outstanding Overpayments 

                                                                        (Dollars in Th ou sands) 


                                            Type of Payment
       DOJ Mission-Aliqned          (includes only the types made per        Amount Outstandinq             Amount Outstandinq               Amount Outstandinq
             Program                            P'og,,~)                       (0 to 6 months) .             (6 monlhs 10 1 year>" '            (over 1 year) -
 Administrative, Technology,       Commercial                                                        $154                              $46                        $2<)
 and Olher                         Custodial                                                           $0                               $0                         $0
 Litigation                        Commercial                                                         $13                               $1                        $37
 Law Enforcement                   Commercial                                                        $341                               $2                        $53
 Slate, Local, Tribal, and Other   Benefit and Assistance                                              $0                               $0                         $0
 Assistance                        Commercial                                                          $4                               $0                         $0
                                   Grants and Cooperative Agreemenls                                 $946                              $38                    $605
 Prisons and Detention             Commercial                                                         $85                          $148                       $609
 Total                                                                                           $1,543                            $235                     $1,324




                                                                                - 15 ­
       il. 	 A s ummary of how recovered amounts have been dis posed of (if any of this information is no t available, indicate by either
             " Note" or " N/A" in t he relevant column or cell).

                Table 4 provides the disposition infonnatioll for the improper payments the Department recovered in FY 2013 . As shown in the
                table, approximately $16.8 million of the approximate $18.1 million recovered (or approximately 93 percent) was retumed to the
                Oliginal fiUIds from which the payments were made.

                                                                                  Table 4
                                                           Dispos ition of FY 2013 Recovered Funds
                                                                         IDollars in Thousands)

                                                                                                                Disposition
                                                         Improper                        A~en cv    Payment        Financial                Offi ce of
 DOJ Mission-               Tvpe of Payment             Payments       Returned to    Expenses to   Recapture    Man a ~ement   Used for       the       Returned
     Aligned        (includes only the types made per   Recovered       Original       Administer    Auditor    Improvement     Original   Inspector      to the
    Proaram                      DrOQra~)               in FY 201 3       Fund        the Proaram     Fees        Activities    Purpose     General      Treasur'l
Adminisirabve,      Commercial                               $1 ,698        $1 ,698
Technology,         Custodial
and Other
                                                                 $0
Litigation          Commercial                               $1 ,157        $1 ,157
L,w                 Commercial
                                                             $9,260         $9,260
Enforcemen t
State, Local,       Benefit and Assistance                       $0
Tribal, and         Commercial                                   $2             $2
Other               Grants and Cooperative
Assistance                                                   $3,189         $3,189
                    Agreements
Prisons and         Commercial
                                                             $2,817         $1,522                                                                          $1 ,295
Detention
Total                                                       $18,123        $16,828                                                                          $1,295




                                                                                - 16 ­
    O. 	 As applicable, agencies should also report on improper payments identified and recovered
         through sources other than payment recapture audits. For example , agencies could report on
         improper payments identified through statistical samples conducted under the IPIA, agency
         post-payment reviews or audits, Office of the Inspector General reviews, Single Audit reports,
         self-reported overpayments, or reports from the public. Specific information on additional
         required reporting for contracts is included in Section 7 of OMB memorandum M-11-04, issued
         in November 2010. Reporting this information is required for FY 2011 reporting and beyond. If
         previous year information is not available, indicate by a " Note."

       TIle Department' s payment recapture audit program leverages both intem al and extem al efforts to
       identifY improper payments. The repOiting in Tables 1B through 5 is inclusive of all overpayments,
       regardless of whether they were identified through intemal or extemal sources. Table 5 provides
       infonllation on the overpayments that were identified in the cunent year (FY 20 13), previous year
       (FY 20 12), and cumulatively (FYs 2011 through 2013) by source, i.e., through intemal efforts or by
       auditors, vendors, or payment recapnrre audit contractors. The table also provides the recovelY
       infonllation associated with overpayments identified by those sources. The table provides infonllation
       for FYs 2011 through 20 13 only, as agencies were not required to track this level of detail prior to
       FY 20 11.

                                                 Table 5 

                                   Sources of Identifying Overpayments 

                                                (Dollars in Thou sands) 


                                Current Year                   Previous Year                      Cumulative
                                  IFY 2013)                       IFY 2<)12)               (FYs2011 Ihrouqh2013)
                           Improper      Improper         Improper           Improper     Improper       Improper
                           Payments     Payments          Payments          Payments      Payments       Payments
              Source       Identified   Recovered         Identified        Recovered     Identified    Recovered
       Internal Efforts       $10,211        $9,376           $2,766             $3,442       $18,225        $17, 126
       Auditors
       (e.g.. by the OIG
                               $6,520          $3,590         $2,017            $2,943       $14,447          $9,823
       or audits fOf OMB
       Circular A-I33)
       VendOfs                 $4,745          $4,663         $2,722            $2,671        $8,944          $8,993
       Payment
       Recapture Audit           $505            $494              $0               $0          $505            $506
       Contractors
       Total                  $21,981         $18, 123        $7,505            $9,056       $42, 121        $36,448

Item VI. Accountability. Any agency that has programs or activities that are susceptible to significant
improper payments shall describe the steps the agency has taken and plans to take (including
time line) to ensure that agency managers, accountable officers (including the agency head), programs,
and States and localities (where appropriate) are held accountable for reducing and recovering
improper payments. Specifically, they should be held accountable for meeting applicable improper
payments reduction targets and establishing and maintaining sufficient internal controls (including an
appropriate control environment) that effectively prevents improper payments from being made and
promptly detects and recovers any improper payments that are made.

Not applicable. Based on the results of the FY 2013 Department-wide risk assessment, there were no
programs susceptible to significant improper payments. With regard to the funding provided to the
Department in FY 20 13 by the Disaster Relief Act, which the Act deemed to be susceptible to significant
improper payments, the Department will begin repOiting on the funding in the Depaltment's IPIA repOiting for
FY 20 14 in accordance with the OMB implementing guidance.




                                                         - 17 ­
Item VII. Agency Information Systems and Other Infrastructure.

    A. 	 Describe whether the agency has the internal controls, human capital, and information systems
         and other infrastructure it needs to reduce improper payments to the levels the agency has
         targeted.

        The results of the FY 2013 Department-wide risk assessment demonstrated that, overall, the
        Department has sufficient internal controls over disbursement activities to prevent improper payments.
        The assessment identified no programs susceptible to significant improper payments.

        Department-wide actions to reduce improper payments are accomplished through an aggressive
        strategy of re-engineering and standardizing business processes, concurrent with the Department’s
        implementation of an integrated financial management system, which is underway. As of the end of
        FY 2013, all Departmental components reported that they had sufficient internal controls, human
        capital, and the information systems and other infrastructure needed to reduce improper payments to
        targeted levels.

    B. 	 If the agency does not have such internal controls, human capital, and information systems
         and other infrastructure, describe the resources the agency requested in its most recent
         budget submission to Congress to establish and maintain the necessary internal controls,
         human capital, and information systems and other infrastructure.

        Not applicable. The continued implementation of the Department’s integrated financial management
        system will complement the Department’s current infrastructure and capabilities to reduce improper
        payments.

Item VIII. Barriers. Describe any statutory or regulatory barriers that may limit the agency’s corrective
actions in reducing improper payments and actions taken by the agency to mitigate the barriers’
effects.

The Department has not identified any statutory or regulatory barriers that limit its corrective actions in
reducing improper payments.

Item IX. Additional Comments. Discuss any additional comments, if any, on overall agency efforts,
specific programs, best practices, or common challenges identified as a result of IPERA
implementation.

The Department recognizes the importance of maintaining adequate internal controls to ensure proper
payments and is committed to the continuous improvement of the overall disbursement management process.
The Department’s top-down approach for implementing the expanded requirements of the IPERA promotes
consistency across the Department, both with regard to conducting the required risk assessment and for
tracking and reporting payment recapture audit activities. In FY 2014, the Department will continue its efforts
to further reduce improper payments, as well as improve the recovery rate for grants.




                                                     - 18 -
                                                                                    APPENDIX II

STATUS OF PRIOR YEAR’S COMMENT AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General
of the United States, we have evaluated whether the Department has taken
appropriate corrective action to address the comment and recommendations from
the prior year’s compliance examination. The following table provides the Office of
the Inspector General report number where the comment was reported, the
recommendations for improvement, and the status of previously identified
recommendations as of the end of fiscal year 2013.


     Report              Comment                     Recommendation                      Status
Examination of        Internal Controls   Recommendation No. 1: Perform                 Completed
the Department        over Financial      additional analytical procedures, across
of Justice’s Fiscal   Reporting Need to   fiscal years, on the information reported
Year 2012             be Strengthened     in the Agency Financial Report to identify
Compliance With                           unusual fluctuations that could indicate a
the Improper                              reporting error.
Payments
Information Act                           Recommendation No. 2: Enhance the             Completed
of 2002, Report                           quality control review process to ensure
No. 13-16                                 accurate data is reported and perform a
                                          completeness check of data fields
                                          provided in the components’ tracking
                                          spreadsheets to identify any “blank”
                                          fields that cause incorrect calculations or
                                          result in information not being pulled
                                          into the consolidated file.




                                                - 19 -
